        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report

The Department of Energy's
Weatherization Assistance Program
Funded under the American
Recovery and Reinvestment Act in
the State of Indiana




OAS-RA-11-13                        August 2011

                                 Department of Energy
                                    Washington, DC 20585

                                        August 23, 2011



MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Weatherization Assistance Program Funded under the American
                         Recovery and Reinvestment Act for the State of Indiana"
BACKGROUND
The Department of Energy's (Department) Weatherization Assistance Program (Weatherization
Program) received $5 billion under the American Recovery and Reinvestment Act of 2009
(Recovery Act) to improve the energy efficiency of residences owned or occupied by low
income persons. Subsequently, the Department awarded the State of Indiana a 3-year
Weatherization Program grant of $131.8 million, representing a ten-fold increase over the
$12.3 million in funds available to the State for weatherization in Fiscal Year 2009. Indiana
planned to use its Recovery Act funding to weatherize almost 20,000 homes. Indiana officials
reported that as of March 2011, the Program had weatherized about 15,000 homes.

The Indiana Housing and Community Development Authority (IHCDA) administers the
Weatherization Program grant through 31 local entities, including local agencies, nonprofit
organizations, and units of local government. The largest Weatherization grant, almost
$42 million or roughly a third of the State's Recovery Act funding, was provided to the Indiana
Builders Association (IBA), a nonprofit organization. Local entities are responsible for
documenting eligibility, performing home assessments, providing weatherization materials and
services, and conducting final inspections on completed homes.

Given the significant increase in funding and demands associated with weatherizing thousands of
homes, we initiated this audit to determine if Indiana and three of its local agencies – Hoosier
Energy Rural Electric Cooperative, REAL Services, Inc., and Indiana Builders Association
(IBA) had managed the Weatherization Program efficiently and effectively.

OBSERVATIONS AND CONCLUSIONS
Our review did not reveal material problems with the State's management of the Weatherization
Program and the three local agencies we visited. We did, however, identify opportunities for the
State and IBA to improve the efficiency and effectiveness of their Weatherization Programs.
Specifically, we found that IBA had not always:

       Maintained documentation to support weatherization material costs reimbursed by the
       IHCDA, even though it was specifically required to do so. For 22 of the 23 homes we
       sampled, we found that contractors had requested reimbursement for "special
       circumstance charges." Such charges, totaling about $8,000 for the homes we reviewed,
       included reimbursement requests for custom sized doors, window sealing, electrical
       fittings, and related labor that were not included in IBA's established price list. Payments
       were made without necessary supporting information because IHCDA had not enforced
       policies and regulations that require adequate documentation to support contractor
       billings; and,

       Taken action to ensure that dwellings had been disqualified from receiving Recovery Act
       funded services because they had received weatherization services in the past. The
       Recovery Act stipulates that Department funds may not be used on units that had been
       weatherized anytime after September 30, 1994. The information needed to enforce this
       requirement was limited, since IHCDA's database included only homes weatherized after
       2000, and weatherization auditors employed by IBA did not take action to verify the
       source of any previous weatherization work performed on homes they assessed.

                                Cost of Weatherization Materials

We identified instances in which costs claimed by IBA and reimbursed by the Department were
not adequately supported. Specifically, costs for 22 of the 23 homes we visited at IBA included
one or more "special circumstance charges" for materials not listed on IBA's approved price
sheet. Invoices provided a general description for the charges, but they did not include a product
description, model number, or receipt of purchase. For example, one contractor charged about
$350 for a furnace "draft inducer motor" without any description of the item or receipt for the
purchase. Draft inducer motors can range in price from as low as $57 to as high as $635 with an
assembly kit. In another instance, a contractor billed about $400 for a sliding door – the price on
the established list– but added $300 for labor and material costs. While we noted that the items
had been procured and installed, we could not find documentation supporting the additional
amount claimed.

Because billings consistently lacked documentation, we could not determine if the $8,000 in
special circumstance charges for items in the 22 homes were reasonable. IBA had informed
IHCDA that items charged as special circumstances would be supported by a local cost
comparison to ensure labor and material costs were reasonable. IHCDA officials indicated that
they planned to review special circumstance charges during agency monitoring visits and to
resolve any issues at that time. Since the invoices lacked sufficient detail to perform a
reasonableness check, IHCDA would not have been able to review special circumstance charges.
In the absence of documentation, we question $8,000 in unsupported costs reimbursed to IBA for
special circumstance charges.

IHCDA had not enforced policies and regulations requiring adequate documentation to support
contractor billings. Office of Management and Budget Circular A-87 requires recipients of
Federal funds to ensure that costs are necessary, reasonable, and adequately documented.

                                       Eligibility of Homes

Neither IBA nor IHCDA had taken sufficient action to ensure that homes were not disqualified
based on the prior receipt of weatherization services. The Recovery Act stipulates that
                                                 2

Department funds may not be used to re-weatherize homes that had been weatherized anytime
after September 30, 1994. The State's database included only homes weatherized after 2000.
IBA told us that its assessors should have requested pre-2000 records if the home revealed work
that could be associated with prior weatherization. Department weatherization officials stated
that policy clarification would be distributed to all affected Weatherization Program staff to
remind grantees of their required compliance with the Recovery Act re-weatherization provision.

                                  Impact of Problems Identified

The weaknesses we identified, if uncorrected, could increase the risk of fraud, waste, and abuse.
Payments to contractors for improperly supported or ineligible homes reduce the availability of
funds and could deprive qualified homes of needed services.

RECOMMENDATIONS

To achieve the objectives of the Recovery Act, we recommend that the Acting Assistant
Secretary for Energy Efficiency and Renewable Energy ensure that the State of Indiana:

    1.	 Establishes and enforces policies and procedures regarding costs incurred for special
        circumstance charges; and,

    2.	 Develops a methodology to provide assurance that the Department's Weatherization
        Program funding is not used to weatherize homes/units that have received
        weatherization services after September 30, 1994.

We also recommend that the contracting officer resolve questioned costs for special
circumstance charges.

MANAGEMENT COMMENTS

The Department concurred with the findings and recommendations contained in our audit report.
Management noted that although the State had made a number of improvements, including
modifying their Policy Advisory Council composition, providing additional training, and
increasing oversight, there is more work to be done. The Department plans to evaluate actions
taken by the State in response to our report and will focus on providing oversight to ensure that
the State is improving documentation for "special circumstance charges" and developing formal
weatherization policies and procedures, particularly in regard to re-weatherization of eligible
homes.

The State of Indiana and the IBA which provided consolidated comments, generally agreed with
our observations and conclusions. In response to our audit, the State noted that IBA had
procedures for reviewing "special circumstance charges," however, IBA had not always
documented the review results. Accordingly, the State will update its Weatherization Policies
and Procedures Manual regarding maintaining receipts and documentation for "special
circumstance charges," including documentation showing whether a cost comparison had been
conducted. Regarding the re-weatherization of homes, the State noted that it had verbally
advised sub-grantees of the requirements for determining an eligible home, including discussing

                                                3

a standard process for verifying that no previous weatherization measures had been performed.
In response to our audit, the State noted that it will provide sub-grantees with written guidance
on the subject.

Management's actions are responsive to our recommendations. The Department's response,
along with the State's comments, are included in their entirety in Attachment 3.

Attachments

cc:	 Deputy Secretary
     Associate Deputy Secretary
     Acting Under Secretary of Energy
     Deputy Assistant Secretary for Energy Efficiency, EE-20
     Chief of Staff




                                                 4

                                                                                     Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the State of Indiana's Housing &
Community Development Authority (IHCDA) had managed the Weatherization Assistance
Program (Weatherization Program) efficiently and effectively.

SCOPE

This report contains the results of an audit performed between May 2010 and August 2011, at
IHCDA and three of its community action agencies – Hoosier Energy Rural Electric
Cooperative, REAL Services, Inc., and Indiana Builders Association. We performed site visits
to one of the local agencies. An independent accounting firm under contract with the Office of
Inspector General conducted site visits to two of the local agencies. Two homes selected as part
of our audit could not be visited because weatherization services were deferred to a later date due
to repairs that needed to be performed on the properties before weatherization services could
begin.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed applicable laws, regulations, and guidance pertaining to the Weatherization
       Program under the American Recovery and Reinvestment Act of 2009 (Recovery Act); as
       well as policies, procedures, and guidance applicable to the State of Indiana's
       Weatherization Program;

       Interviewed community action agency      State of Indiana officials to discuss efforts to
       implement the requirements of the Weatherization Program under the Recovery Act;

       Visited homes located across Indiana to assess the quality of work performed;

       Reviewed State monitoring reports and Energy Assistance Program applications for all
       weatherization clients in our sample; and,

       Reviewed documentation involving work performed for each of the clients in our review
       including labor, materials, and timeliness of work performed.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective. We assessed performance
measures in accordance with the Government Performance and Results Act of 1993 and
determined that performance measures were established for the Weatherization Program for


                                                5

                                                                       Attachment 1 (continued)


Indiana. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. We did not rely on computer
generated data to perform the audit.

The Department waived the exit conference.




                                                6

                                                                                    Attachment 2


                                    RELATED REPORTS

Office of Inspector General Reports

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Office of
Inspector General has initiated a series of audits designed to evaluate the Department of Energy's
Weatherization Assistance Program's internal control structures at the Federal, state, and local
levels. Although not found in every state, these audits have identified issues in areas such as
poor quality of weatherization services, inspections and re-inspections, inadequate inventory
controls, and questioned costs resulting from the ineffective administration of the weatherization
grants. Our series of audit reports include the following:

       Audit Report " The Department of Energy's Weatherization Assistance Program Funded
       under the American Recovery and Act in the State of Wisconsin" (OAS-RA-11-07,
       June 6, 2011)

       Audit Report "The Department of Energy's Weatherization Assistance Program under the
       American Recovery and Reinvestment Act for the Capital Area Community Action
       Agency – Agreed-Upon Procedures" (OAS-RA-11-04, February 1, 2011)

       Audit Report "The Department of Energy's Weatherization Assistance Program under the
       American Recovery and Reinvestment Act for the City of Phoenix – Agreed-Upon
       Procedures" (OAS-RA-11-03, November 30, 2010)

       Audit Report "Selected Aspects of the Commonwealth of Pennsylvania's Efforts to
       Implement the American Recovery and Reinvestment Act Weatherization Assistance
       Program" (OAS-RA-11-02, November 1, 2010)

       Audit Report "The State of Illinois Weatherization Assistance Program" (OAS-RA-11-
       01, October 14, 2010)

       Audit Report "The Department of Energy's Use of the Weatherization Assistance
       Program Formula for Allocating Funds Under the American Recovery and Reinvestment
       Act" (OAS-RA-10-13, June 11, 2010)

       Preliminary Audit Report "Management Controls over the Commonwealth of Virginia's
       Efforts to Implement the American Recovery and Reinvestment Act Weatherization
       Assistance Program" (OAS-RA-10-11, May 26, 2010)

       Special Report "Progress in Implementing the Department of Energy's Weatherization
       Assistance Program Under the American Recovery and Reinvestment Act" (OAS-RA-10-
       04, February 19, 2010)

       Audit Report "Management Alert on the Department's Monitoring of the Weatherization
       Assistance Program in the State of Illinois" (OAS-RA-10-02, December 3, 2009)



                                                7

                                                                                             Attachment 3




                                Department of Energy
                                    Washington, DC 20585

                                         August 2, 20 ll



MEMORANDUM FOR:              GEORGE W. COLLARD
                             ASSISTANT INSPECTOR GENERAL FOR AUDITS
                             OFFICE OF INSPECTOR GENERAL

FROM:                        KATHLEEN B. Ht'lf.GAAJ&'.~V 1l~=7
                             DEPUTY ASS! A -vfd~1'ffi·~
                             FOR ENERGY      CIENCY
                             ENERGY EFFICIENCY AND RENEWABLE ENERGY

SUBJECT:                     Management response to the Office oflnspector General's Report
                             entitled "The Department of Energy's Weatherization Assistance
                             Program Funded under the American Recovery and Reinvestment
                             Act for the State of Indiana"


The Office of Energy Efficiency and Renewable Energy (EERE) appreciates the opportunity to
review the Office of Inspector General's (OIG) Draft Audit Report "The Department of Energy's
Weatherization Assistance Program Funded under the American Recovery and Reinvestment Act
for the State of Indiana " and concurs with the report's recommendations. The Department of
Energy (DOE or Department) is strongly committed to ensuring that each of the grantees under
the Weatherization Assistance Program (WAP) performs high quality work that meets the goals
ofWAP and the American Recovery and Reinvestment Act of2009.

In response to DOE's concerns and corrective action plans, the State of Indiana has made a
number of improvements, such as modifying their Policy Advisory Council (PAC) composition,
checking for Material Safety Data Sheets (MSDS) during in-progress monitoring visits, offering
additional training to avoid incorrectly grounding furnaces as well as polarity reversal in SSU
switches, in how it implements theW AP. However, as this report shows, there is work still to be
done. During on-site quarterly visits, the DOE project officer will assess how the State is
progressing in meeting the audit recommendations. The Department will continue to
aggressively monitor progress in the areas identified by the Inspector General.

Additional responses are included below that address the specific recommendations in the draft
report:




                                 0     Pnnted with soy mk on recycled paper




                                          8

                                                                          Attachment 3 (continued)




                       Response to Inspector General Audit Report:
 "The Department of Energy's Weatherization Assistance Program Funded under the American
                 Recovery and Reinvestment Act for the State of Indiana"

   To address the deficiencies identified in our audit and to help ensure the success of the
   Indiana Weatherization Assistance Program, we recommend that the Acting Assistant
   Secretary for Energy Efficiency and Renewable Energy ensures that Indiana:


OIG Recommendation #1:
Establishes and enforces policies and procedures regarding costs incurred for special
circumstance charges.

DOE Response:
DOE agrees with the OIG's statement that pursuant to 2 CFR 225 (OMB Circular A-87),
Grantees must ensure that all costs charged to the grant are necessary, reasonable, and adequately
documented. The Indiana Housing and Community Development Authority (IHCDA) has
included this requirement in the subgrantee contract with the Indiana Builders Association (IBA)
in Section V.C., which reads, "Grantee shall maintain those books, records, and documents,
including, but not limited to, payroll records, banking records, accounting records, and purchase
orders, which are sufficient to document Grantee's financial activities and Grantee's claims for
reimbursement under this Agreement." Another provision in the subgrantee contracts regarding
procurement is section III.J which states, "In making any procurement or entering into any
contract that requires the expenditure of funds provided pursuant to this Agreement, Grantee
shall adhere to the applicable provisions of I 0 C.F .R. Parts 440 and 600, OMB Circular A-ll 0,
now reported at 2 C.F.R. Part 215, and IHCDA policies regarding procurement. Grantee shall
use the State's centralized purchasing system ("Centralized Purchasing") to obtain
weatherization materials, unless an exemption is granted by IHCDA."

Given that 22 out of23, or 96% of the client files reviewed lacked adequate documentation, it is
apparent that IHCDA is not enforcing this provision during its monitoring visits to this
subgrantee. The DOE Project Officer (PO) will provide oversight to IHCDA specifically to
ensure that the above contract provision is enforced. The "special circumstance charge" is a
feature unique to the subgrantee contract with the IBA because of their particular accounting
system and how it interfaces with IWAP (the centralized database for tracking and reimbursing
weatherization work performed in Indiana). Documentation of these "special circumstance
charges" could not be produced when requested of IHCDA.




                                        9

                                                                          Attachment 3 (continued)




The PO has already discussed the matter with IHCDA in an attempt to find a workable solution
to this situation. Ray Judy, the newly appointed Weatherization Technical Manager in IHCDA,
has offered two possible approaches to address this matter. The first option presented, which Mr.
Judy stated is the preferred option, is to require IBA to go through a proper bid procedure for any
item of work performed that is not included in their price list. An alternative to performing a
proper bid process would be to identify within IBA's Procedures Manual what qualifies as
"special circumstances" items and require that charges for these items will be based on time and
material with a set standard for an hourly rate. This information would be backed up with the
appropriate material and labor invoices. Either of these DOE-acceptable processes would be
monitored by IHCDA during regular scheduled monitoring visits.

DOE agrees that without adequate documentation, it is exceedingly difficult to assess
reasonableness and necessity of these "special circumstance charges". It is unclear if these
charges were appropriately entered into the energy audit and their effect on the measure and
cumulative Savings-to-Investment Ratios (SIRs). The PO will work with the Contracting Officer
(CO) and IHCDA to determine the reasonableness and necessity of these charges, review the
costs and associated SIRs if not previously included, and make a determination if any costs
should be disallowed. Furthermore, the PO will provide oversight with regards to IHCDA's
implementation of the change to their sub grantee contract with IBA and subsequent monitoring
to ensure IBA compliance with the new provision.



OIG Recommendation #2:
Develops a methodology to provide assurance that the Department's Weatherization Program
funding is not used to weatherize homes/units that have received weatherization services after
September 30, I 994.

DOE Response:
Section 504.3 (ARRA Reweatherization) of the current IHCDA Weatherization Policies and
Procedures Manual reads, "Sub-grantees may provide services to a dwelling unit previously
weatherized prior to September 30, 1994, as noted in the American Reinvestment and Recovery
Act of 2009. DOE gives sub-grantees the flexibility to revisit those homes weatherized prior to
1994 that may not have received the full complement of Weatherization services. Any unit
reweatherized must be recorded in IWAP under reweatherization."

 There is currently no written requirement by IHCDA that subgrantees check whether or not a
 home has been weatherized since September 30, I 994. The question is asked as part of the Low
 Income Home Energy Assistance Program intake process, which is then used as the eligible
 client list for weatherization in Indiana; however, there is no follow-up verification performed.
 If the auditor suspects that weatherization services have previously been rendered in a home,
 they have been instructed to check with the local agency that has historically provided




                                        10

                                                                          Attachment 3 (continued)




weatherization services to that area to inquire about any records pertaining to services previously
provided. The expectation that the incumbent local agencies are to cooperate with these
inquiries from IHCDA, or from new weatherization service providers, has been given verbally
during WAP Managers' meetings; however, this expectation has never been codified in the
subgrantee agreements or IHCDA's Weatherization Policies and Procedures Manual.

DOE agrees that this is a weakness in the Indiana weatherization policies and procedures. The
PO will provide oversight and require that IHCDA include this verification requirement and
interagency cooperation expectation in the subgrantees' contract and the IHCDA Weatherization
Policies and Procedures Manual. Failure to comply with these provisions carry the same penalty
reserved for non-compliance with the requirement to submit program and financial
documentation to IHCDA or the United States Government upon request, specifically, "failure of
Grantee to comply with any such request could result in immediate suspension of payments
hereunder or termination of this Agreement by IHCDA." The PO will inform IHCDA that future
observations of this practice will result in disallowed costs due to the pervasive nature of the
problem.




                                        11

                                                                                      Attachment 3 (continued)




                               ihcdaOOf)
July 18,2011

George W. Collard
Assistant Inspector General for Audits
Office of Inspector General
Department of Energy
Washington, DC 20585


RE: Draft Audit Report of the Department of Energy's Weatherization Assistance Program
("WAP") Funded under the American Recovery and Reinvestment Act ("ARRA") for the State of
Indiana (the "Draft Audit Report")

Dear Mr. Collard:

The purpose of this letter is to provide vffitten comments on the facts presented, conclusions reached, and
appropriateness of recommendations identified in the Draft Audit Report. This letter will also discuss any
corrective actions taken or planned with respect to the recommendations contained in the Draft Audit
Report.

OBSERVATIONS AND CONCLUSIONS

Indiana Housing and Community Development Authority ("IHCDA") and the Indiana Builders
Association ("IBA'') generally agree with all of the observations and conclusions excepting the following
statements:

    (1) " ... weatherization auditors employed by IBA did not take action to verify the source of any
        previous weatherization work performed on homes they assessed."; and
    (2) "Neither IBA nor IHCDA had taken action to ensure that homes were disqualified based on the
        prior receipt of weatherization services."

With respect to the first statement and to the contrary, sub-grantees were previously advised by IHCDA to
utilize the following process to ensure that homes that were previously weatherized after September 30,
1994 would not be re-weatherized:

    (I) When a sub-grantee enters a client's address into the IWAP system, the system will identify
        whether the client's home had been weatherized during or after 2000.
    (2) Auditors are instructed to ask each client whether his or her home has been weatherized after
        September 30, 1994. If the client's answer to this question is "yes", the auditor is instructed to
        defer the home.
    (3) Auditors are instructed to perform a visual inspection on each home to identify whether previous
        weatherization measures have been performed, and if evidence of such measures are discovered,
        the auditor is instructed to contact the community action agency that handles or previously
        handled the area in which the home is located to determine whether the home was previously
        weatherized by that community action agency.


                    30 S. MERIDIAN ST. SUIT£ 1000- INDIANAPOLIS, IN 46204- HTTP:l/IHCDA.IN.GOV




                                                                                                                        •
                                 P: 317.232.7777- F: 317.232.7778- TF: 800.872.0371
                                                                                                                            ••••
                                                                                                 Stal.e of lnd•ana
                               EQUAL OPPORTUNITY EMPLOYER AND HOUSING AGENCY                                            i
                                                                                                 L1eut<:nant Governor
                                                                                                                                   '




                                            12

                                                                                     Attachment 3 (continued)




   (4) If no evidence of previous weatherization is discovered, the auditors are instructed to go forward
       with providing weatherization services to the home.

With respect to the first and second statement and to the contrary, IBA has a four (4) step process to
verify that no previous weatherization measures were performed on a home.

   ( 1) The IBA call center is instructed to ask each client, whether his or her home has been weatherized
        since September 30, 1994 at the time the client calls in expressing an interest in having his or her
        home weatherized. If the client's answer to this question is "yes", IBA 's call center immediately
        informs the client that his or her home is not eligible to receive additional services at this time and
        closes the client file.
   (2) When IBA staff enters a client's address into the IWAP system, the system will identify whether
        the client had been weatherized during or after 2000.
   (3) IBA auditors are instructed to ask each client whether his or her home has been weatherized after
        September 30, 1994. If the client's answer to this question is "yes", and they indicate that this
        has been done with through a federal program since Sept. 30, 1994, the TBA auditor defers the
        home and the client file is closed.
   (4) IBA auditors are instructed to perform a visual inspection on each home to identify whether
        previous weatherization measures were performed, and if such measures are discovered, the
        auditors are instructed to contact IBA to determine if it might have been previously weatherized
        by another provider. The auditor is directed to defer the home until a determination can be made
        as to whether the home has been previously weatherized with federa1 funds.

RECOMMENDATIONS

DOE Recommendation #1: Establish and enforce policies and procedures regarding costs incurred
for special circumstance cbarges.

Response/Corrective Action Plan

IBA's current policy with respect to specia1 circumstance charges is as follows: the IBA County Energy
Manager reviews each request for a special circumstance charge and conducts a comparison to detennine
whether the price is appropriate for the special circumstance item. IBA's County Energy Manager
generally looks online for comparables to determine whether costs are reasonable. IHCDA monitors also
review the reasonableness of special circumstance charges during its monitoring. This review is typica1ly
conducted by comparing the pricing submitted to similar items listed online and by utilizing the IHCDA
monitor's extensive knowledge in the area of labor costs to determine the reasonableness of the labor
costs associated with the charge. Unfortunately, neither organization printed copies of the infonnation it
reviewed to make the comparisons. Therefore, within sixty (60) days, IHCDA will update its
Weatherization Policies and Procedures Manual to indicate the need and necessity of sub-grantees
maintaining receipts and documentation showing whether a cost comparison was conducted. Within sixty
(60) days IHCDA will issue a policy clarification memo on this topic. On July 13 through July 14 of
2011, the IHCDA held its Semi Annual Manager's Meeting ("SAMM") for its ARRA WAP sub-grantees.
In conjunction with IHCDA's presentation during SAMM on July 14m, Paul Krievins, the Deputy
Director of Energy Programs, discussed this topic and re-affirmed the importance of the sub-grantee
maintaining receipts for these type of charges for items purchased that are not contained on the sub-
grantee's price list and maintaining documentation showing that a cost comparison was conducted. Each
sub-grantee had at least one (1) representative in attendance at the SAMM.




                                                                                                                           •
                  30 S MERIDIAN ST., SUITE 1000 -INDIANAPOLIS, IN 46204- HTTP:I/IHCDA.IN.GOV
                                P: 317.232.7777- F: 317.232.7778- TF: 800.872.0371                   State of indiana


                                                                                                     Li~utenant Gov~rnor
                              EQUAL OPPORTUNITY EMPLOYER AND HOUSING AGENCY




                                          13

                                                                                      Attachment 3 (continued)




DOE Recommendation #2: Develop a methodology to provide assurance that the Department's
Weatherization Program funding is not used to weatherize home/units that have received
weatherization services after September 30, 1994.

Response/Corrective Action Plan

Although IHCDA's four (4) step process (set forth on page 1 of this Jetter) has been discussed with sub~
grantees, it has not been provided to them in written format. Therefore, within sixty (60) days, IHCDA
will update its Weatherization Policies and Procedures Manual to add this policy in writing. Within sixty
(60) days IHCDA will issue a policy clarification memo on this topic. Additionally, on July 13 and July
14 of 2011, the IHCDA held its Semi Annual Manager's Meeting ("SAMM") for its ARRA WAP sub~
grantees. In conjunction with IHCDA's presentation during SAMM on July 14m, Paul Krevins, the
Deputy Director of Energy Programs, discussed and reinforced the importance of following the process
described above to confirm that each home that it weatherizes has not been previously weatherized after
September 30, 1994. Each sub-grantee had at least one (1) representative in attendance at the SAMM.

Thank you for your consideration of the responses provided above, if there are any questions please feel
free to contact Paul Krievins, the Deputy Director of Energy Programs at pkrievins@ihcda.in.gov or
myself at sseiwert@ihcda.in.gov.




Sherry Seiwert
Executive Director
Indiana Housing and Community Development Authority



CC: Paul Krievins
Mark Young
Shawn Green




                                                                                                                   •
                    30S MERIDIAN ST., SUITE 1000 -INDIANAPOLIS, IN 46204- HTTP:/IIHCDA.IN.GOV
                                                                                                 State cflndi~na
                                 P: 317.232.7777- F: 317.232.7778- TF: 800.872.0371

                               EQUAL OPPORTUNITY EMPLOYER AND HOUSING AGENCY




                                          14

                                                                    IG Report No. OAS-RA-11-13


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding this
    report?

2.	 What additional information related to findings and recommendations could have been
    included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report's overall
    message more clear to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the issues
    discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should we have
    any questions about your comments.


Name 	                                        Date

Telephone	                                    Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
